               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Domestic Negotiated Service
                 Agreements

                       Audit Report




                                              April 29, 2013

Report Number MS-AR-13-007
                                                                           April 29, 2013

                                                         Domestic Negotiated Service
                                                                        Agreements

                                                         Report Number MS-AR-13-007



BACKGROUND:
The U.S. Postal Service is authorized to      Our objective was to evaluate the
enter into negotiated service                 process for managing domestic NSAs
agreements (NSAs) -- customized               and determine whether they resulted in
contractual agreements between the            mail volume and revenue increases.
Postal Service and specific mailers that
provide customers special rebates,            WHAT THE OIG FOUND:
discounts, or pricing flexibility in return   The domestic NSAs we reviewed
for increased mail volume and revenue         generally resulted in mail volume and
growth.                                       revenue increases; however, we could
                                              not determine whether the increases
The Postal Service is required to file        were the direct result of incentives
documentation with the Postal                 created by the agreements. In addition,
Regulatory Commission showing that a          the data used to calculate rebates,
prospective agreement will improve the        discounts, and mail volume growth were
Postal Service's net financial position or    not always accurate. Further, the data
mail processing functions and will not        reported to the Postal Regulatory
cause undue discrimination to the             Commission did not always agree with
marketplace. In addition,                     data the Postal Service used to
market dominant NSAs cannot cause             calculate discounts and rebates. We
unreasonable harm to the market. While        identified $1.2 million in incorrect and
the Postal Service is able to verify          questionable customer rebates and
volume and revenue increases                  quarterly price adjustments. Lastly, the
associated with NSAs, an inherent             Postal Service does not have specific
challenge in measuring the success of         criteria governing retention of NSA data.
an NSA is determining whether an              We also noted another matter related to
increase is the direct result of the          the statutory requirement that NSAs
agreement or would have occurred,             cannot cause unreasonable harm to the
without the agreement.                        marketplace.

There were 53 competitive NSAs and            WHAT THE OIG RECOMMENDED:
one market dominant NSA in effect for         We recommended the Postal Service
fiscal year 2012. In addition, as of          develop and implement standardized
March 26, 2013, the Postal Regulatory         procedures for managing NSAs and
Commission approved 40 competitive            establish data retention schedules and a
NSAs for the fiscal year.                     central repository.

                                              Link to review the entire report
April 29, 2013

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           WILLIAM C. RUCKER III
                           VICE PRESIDENT, SALES




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Domestic Negotiated Service
                           Agreements (Report Number MS-AR-13-007)

This report presents the results of our audit of the U.S. Postal Service’s Domestic
Negotiated Service Agreements (Project Number 12WG006EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Jeffrey C. Williamson
    Dennis R. Nicoski
    Steven R. Phelps
    Corporate Audit and Response Management
Domestic Negotiated Service                                                                                        MS-AR-13-007
 Agreements



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

Data Discrepancies ......................................................................................................... 3

   Discount and Rebate Errors ........................................................................................ 4

   Postal Regulatory Commission Reporting ................................................................... 5

Negotiated Service Agreements Data Retention and Central Repository ....................... 5

Other Matters .................................................................................................................. 6

   Unreasonable Harm..................................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impacts ..................................................................................... 12

Appendix C: Volume and Revenue Growth for Negotiated Service Agreements
 Reviewed ................................................................................................................... 13

Appendix D: Negotiated Service Agreements Reviewed With Sample Percentage ...... 14

Appendix E: Management's Comments ........................................................................ 16
Domestic Negotiated Service                                                                           MS-AR-13-007
 Agreements



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Domestic
Negotiated Service Agreements (NSAs) (Project Number 12WG006EN000).
Our objective was to evaluate the process for managing domestic NSAs and determine
whether mail volume and revenue increases occurred. This was a self-initiated audit
and addresses strategic and financial risks. See Appendix A for additional information
about this audit.

NSAs are customized contractual agreements between the Postal Service and specific
mailers. These agreements are developed to promote efficiency and product innovation
by providing customers special rebates, discounts, or pricing flexibility, allowing the
Postal Service to respond to rapid changes in the marketplace. NSAs are similar to
agreements that other companies make with individual customers to meet unique needs
or opportunities.

The Postal Service's Board of Governors must authorize NSAs and the Postal
Regulatory Commission (PRC) must approve them. The Postal Service is required to
file documentation with the PRC showing that any prospective NSA meets the
regulatory criteria and to report results annually.

There are two types of NSAs — competitive and market dominant:

Competitive NSA: Agreements pertaining to Postal Service products or services that
are usually similar to products or services offered by other companies in the
marketplace. 1 Competitive products include Express Mail®2 and Priority Mail®3
packages, which are in direct competition with market products from other suppliers,
such as FedEx and United Parcel Service. The agreements are proprietary, considered
sensitive, and not publicly disclosed. The majority of NSAs are for competitive products.

Market Dominant NSA: Agreements pertaining to products for which the Postal Service
essentially has a monopoly and for which it can set the price substantially above costs,
significantly raise the price, or decrease quality or output, without the risk of losing a
significant level of business to other firms offering similar products. 4 The Postal Service
is authorized to enter into a market dominant NSA with any mailer if it will provide a net
financial benefit to the Postal Service or enhance its operating performance, as long as
it does not cause unreasonable harm to the marketplace. Market dominant products

1
  The Postal Service can create competitive NSAs as result of its inherent contracting authority, and not based on any
specific regulation.
2
  Express Mail is the Postal Service's fastest service for time-sensitive letters, documents, or merchandise.
3
  The Postal Service delivers Priority Mail documents and packages in 2 to 3 days.
4
  39 U.S.C. §3642(b)(1) (2006).

                                                          1
Domestic Negotiated Service                                                                        MS-AR-13-007
 Agreements


include products such as Standard Mail, First-Class™ Mail, Periodicals Mail, and
Package Services Mail. These products do not have any significant competition in the
marketplace because the Postal Service is virtually the only supplier offering these
types of delivery products. Details regarding these agreements are publicly disclosed.
NSAs for market dominant products must comply with the statutory requirement that the
Postal Service not unduly or unreasonably discriminate among users of mail or cause
unreasonable harm to the marketplace. 5

While the Postal Service is able to verify volume and revenue increases associated with
NSAs, an inherent challenge related to measuring the success of an NSA is determining
whether any increases were a direct result of incentives offered by the agreement or
whether mailers would have increased their mailing activity regardless of the incentives
(this is known in the industry as 'anyhow mail'). Consequently, the Postal Service may
provide an unnecessary incentive to mailers who were planning to increase their volume
activity despite the NSA.

Another challenge with NSAs involves market discrimination. Market discrimination can
occur when the Postal Service offers discounts to one provider that it does not offer to
any other provider that mails similar items. In an attempt to address this issue, the PRC
adopted rules requiring the Postal Service to offer functionally equivalent
market dominant NSAs to similarly situated mail providers. A mail provider recently filed
a complaint with the U.S. Court of Appeals, District of Columbia Circuit (D.C. Circuit) on
the grounds that it was denied the same service as other similarly situated mail
providers. The mailer alleged that the Postal Service’s failure to provide the same
service offered to other mailers violated the same anti-discrimination provisions that
apply to NSAs. Although the complaint was not based on any formal NSA, it
demonstrates the sensitivity and controversy related to this issue. On March 7, 2013,
the D.C. Circuit remanded the case to the PRC to develop a remedy for undue
discrimination.

The Postal Service had 53 6 active competitive NSAs and one market dominant
domestic NSA and reported $1.7 billion in revenue to the PRC in fiscal year (FY) 2012.
From FYs 2008 through 2013 (as of March 26, 2013), the Postal Service proposed and
the PRC approved 132 competitive and four market dominant NSAs. Table1 shows the
number of competitive and market dominant NSAs approved by the PRC by fiscal year.




5
    39 U.S.C. §3622(c) (10)(B).
6
    The 53 competitive NSAs consisted of 62 products and the one market dominant NSA consisted of two products.

                                                         2
 Domestic Negotiated Service                                                                        MS-AR-13-007
  Agreements


                         Table 1: Domestic NSAs Approved by the PRC

     Type of NSA        FY 2013        FY 2012      FY 2011       FY 2010     FY 2009      FY 2008        Total

 Competitive                   40              32            14         13          31              2         132
 Market
 Dominant                       0               1             1          0           0              2           4
 Total                         40              33            15         13          31              4         136
Source: PRC website and annual reports to the U.S. resident, U.S. Congress, and Postal Service management.

 The Postal Service is facing significant financial challenges and has taken a number of
 actions to address them. The Postal Service developed the Delivering Results,
 Innovation, Value, and Efficiency (DRIVE) initiative to help improve business
 performance at an accelerated pace and to meet the critical needs of operating in
 today’s competitive and challenging marketplace. As such, NSAs play an important role
 in the DRIVE process by promoting product and service growth. While this audit
 addressed domestic NSAs, we plan to conduct a review in the near future of
 international NSAs that consist of competitive and market dominant products.

 Conclusion

 Our review of nine NSAs, which collectively reported more than                    in revenue
                           8
 to the PRC for FY 2011, revealed the agreements generally resulted in mail volume
 and revenue increases. We confirmed that the Postal Service validated mail volumes
 reported by customers against its own data sources before entering into an NSA.
 However, we could not determine whether the increases in revenue and volume were a
 direct result of incentives offered by the agreements or whether mailers would have
 increased their mailing activity regardless of the incentives. In addition, the Postal
 Service did not always use accurate data to calculate rebates and discounts, which
 resulted in $1.2 million in incorrect and questionable customer rebates and quarterly
 price adjustments. See Appendix B regarding our monetary impacts. Further, the data
 reported to the PRC did not always agree with the amounts the Postal Service used to
 calculate discounts and rebates. Finally, the Postal Service does not have specific
 criteria governing retention of NSA data. We also noted another matter related to the
 statutory requirement that agreements cannot cause unreasonable harm to the
 marketplace.

 Data Discrepancies

 While the Postal Service validated customer mail volume using its own data sources,
 before to entering into an NSA, the data used to calculate rebates, discounts, and mail
 volume growth were not always validated and accurate. In addition, the data reported to
 the PRC did not always agree with the amounts the Postal Service used to calculate


 8
  Eight of the nine judgmentally selected NSAs we reviewed resulted in mail volume and revenue increases. The
 other agreement was continued to retain mailing activity that would not have occurred without an NSA and comprised
 only           of the total revenue generated from the NSAs we reviewed.

                                                         3
Domestic Negotiated Service                                                                               MS-AR-13-007
 Agreements


discounts and rebates. This occurred because the group responsible for calculating
discounts and rebates and the group responsible for reporting results to the PRC do not
have standardized processes to reconcile or coordinate their data efforts. As a result,
we identified $1.2 million in incorrect and questionable rebates and quarterly price
adjustments provided to customers. We believe validation of the data used to determine
that rates, discounts, and rebates would lead to improved accuracy, transparency, and
reliability.

Discount and Rebate Errors

Postal Service product managers did not always identify errors in data used to
determine discounts, rebates, and mail volume growth. For example, we found:

      One customer paid             per mailpiece than the agreed-upon rate during the
       first 2 years of one          agreement. 9 As a result, the Postal Service did not
       collect                                             letter pieces processed
       between                                   . Managers stated they were not aware
       of the discrepancy and assumed the correct price was provided to information
       technology personnel who programmed the customized NSA rates into the reporting
       system 11

      For one                  NSA, the Postal Service used an incorrect quarterly price
       discount. Postal Service staff conducted an annual analysis to identify the lowest
       rate for each weight category by calculating an adjusted base price 12 and comparing
       it to the published price. 13 Quarterly discounts must be calculated based on the
       lesser of the two prices; however, managers did not use the lesser of the two prices
       to calculate the discounts. This resulted in the customer being charged higher rates
       for more than                              items mailed between
               As a result, the customer was erroneously overcharged


      One                 mailer was overpaid          in its annual rebate for NSA
       activity from                                          . The agreement required the
       Postal Service to issue an annual rebate based on mail volume growth; however, the
       Postal Service manager inadvertently retrieved the incorrect mail volume from a
       spreadsheet prepared by another manager. In October 2012, Postal Service
       management stated they would initiate corrective action by discussing the issue with
       the customer and requesting a refund of the overpayment. In addition, management
       is submitting a PostalOne! 15 system change to automate and standardize the NSA
9
    The NSA lists the applicable prices.
10
     We did not claim monetary impact for this amount because it exceeded the 2-year allowable timeframe.



     The published price is the normal price listed in the Postal Service’s Notice 123.
14
     Although the condition occurred from                            we are only claiming monetary impact for

     The Postal Service’s primary system for recording commercial mail transactions and managing customer accounts.

                                                             4
         Domestic Negotiated Service                                                                            MS-AR-13-007
          Agreements


              process related to rebates, discounts, base prices, and volume levels. As of April 2,
              2013, management had not collected the overpayment from the customer


         Postal Regulatory Commission Reporting

         The Postal Service is required to report to the PRC annually on the performance of
         active NSAs. 16 However, the mail volume and revenue data reported to the PRC to
         determine annual NSA compliance were inconsistent with mail volumes and revenue
         used by the Postal Service to determine discounts and rebates to customers. This
         occurred because product and finance managers 17 did not have a standardized process
         in place to reconcile or coordinate their data efforts. Table 2 shows the discrepancies
         we identified with competitive NSAs.

                         Table 2: Summary of Inconsistent Data Reported to the PRC
 Competitive        Fiscal         Management's Records                     Reported to PRC                         Difference
   NSA/
                   Year (s)        Volume           Revenue             Volume            Revenue            Volume            Revenue
 Product(s)




 Total
Source: Postal Service NSA data.

         Negotiated Service Agreements Data Retention and Central Repository

         The Postal Service does not have criteria for retaining 18 NSA data or requiring the use
         of a central repository to maintain this data. While we were able to validate volume and
         revenue growth by assessing the data provided to the PRC to prepare its annual
         compliance determination report, management did not always retain historical or
         analytical data and information, such as methodologies used for rebates and discount
         calculations. As a result, we could not determine whether all volume and revenue
         16
            39 U.S.C. §§3652 (a), (g).
         17
            Product managers are responsible for calculating discounts and rebates provided to the mailers and the finance
         managers are responsible for reporting results to the PRC.
         18
            Records retention schedules are officially maintained in the Postal Service's Electronic Records and Information
         Management System; however, there are no schedules related to NSA data.

                                                                   5
Domestic Negotiated Service                                                    MS-AR-13-007
 Agreements


increases were a direct result of incentives offered by the agreements. Management
stated a central repository for historical NSA data does not exist because each business
owner is responsible for maintaining his or her own documentation.

In one instance, we found that Postal Service management did not provide volume and
revenue data to support an adjusted rebate payment of              awarded to a customer
for its                                   mailing activity. Postal Service management
stated this one-time adjustment occurred in the first year of the agreement when they
experienced computer programming challenges in gathering all the data. However,
management did not retain volume and revenue data used to determine the additional
rebate amount. In the absence of this support, the Postal Service could not justify the
validity of the rebate payment amount.

A central repository of documentation would help management maintain confidential
historical data and assist with future NSA decision making. The repository should
include:

      The methodology the Postal Service uses to project a customer's mail volume to
       determine discounts.

      A comparison of the mailer’s pre-NSA volume with its annual volume under the NSA.

      Analyses of data from other mailers with similar NSAs.

Although the PRC has imposed detailed data collection standards for NSAs, the data in
the central repository would be more thorough and useful than the data collected to
comply with PRC requirements. Additionally, it is a good business practice to use a
central repository to ensure timely, efficient, and accurate retrieval of needed
information. As a result of this audit, the Postal Service has begun collaborating with the
privacy office and the NSA sales office to develop a retention schedule for NSA data.

Other Matters

Unreasonable Harm

The statutory requirement, which states a market dominant NSA cannot cause
unreasonable harm to the marketplace, has yet to be clearly defined. Current
regulations specify that it is the PRC's responsibility to evaluate whether an NSA causes
unreasonable harm to the marketplace before approving it. 19 However, the law that
governs this area 20 does not formally define the meaning of unreasonable harm to the
marketplace. According to Postal Service and PRC management, the term did not need
to be defined in the past because until recently no NSA had been challenged on the
grounds of unreasonable harm to the marketplace. A market dominant NSA is currently


19
     39 U.S.C. §3622(c)(10)(B).
20
     39 U.S.C. §3622(c)(10)(B).

                                              6
Domestic Negotiated Service                                                                                MS-AR-13-007
 Agreements


being challenged in the D.C. Circuit Court on the basis that, among other reasons, 21
implementation of the agreement would cause unreasonable harm to the marketplace.
Therefore, we are not making a recommendation at this time because of the pending
court case and possible legislative changes.

Recommendations

We recommend the vice president, Sales, in coordination with the chief financial officer
and executive vice president:

1. Develop and implement standardized procedures for managing NSAs. The
   procedures should include requirements for validating data used by individuals for
   various internal and external reporting purposes.

We recommend the vice president, Sales:

2. Create a data retention policy and central repository for data archival. Specifically,
   the data should be retained throughout the life of the NSA and for a specified period
   after the agreement expires or is terminated. Historical data should include:

          The methodology the Postal Service uses to project a customer's mail volume to
           determine discounts.

          A comparison of the mailer’s pre-agreement volumes with its annual volumes
           under the NSA.

          Analyses of data from other mailers with similar NSAs.

Management’s Comments

Management generally agreed with our findings and agreed with our recommendations.
Regarding recommendation 1, management will develop and implement standardized
procedures related to NSAs.

Regarding recommendation 2, management plans to develop a data retention policy
and central repository for data archival. Management will retain data throughout the life
of the NSA and for a specified period after the agreement expires or is terminated.
Corrective actions for both recommendations will be implemented by October 31, 2013.

Management agreed with our conclusion that a                mailer was overpaid
          in its annual rebate for activity from                                      .
Management received verbal agreement from the mailer to repay the overpaid rebate
amount and on April 19, 2013, Corporate Accounting sent a signed letter to the mailer
seeking recovery of the funds.


21
     The NSA is also being challenged on the grounds that it will worsen the Postal Service’s net financial position.

                                                             7
Domestic Negotiated Service                                                  MS-AR-13-007
 Agreements


Management did not agree with our conclusion that one                  NSA customer
was overcharged           . In subsequent conversations, management stated they
further analyzed the NSA discount calculations after issuance of the draft report and
determined the payments were correct. Further, the customer was informed of the
discounts used throughout the term of the NSA and did not dispute the calculations.

In subsequent discussions, management also did not agree with             in monetary
impact related to the insufficient support for a rebate adjustment; management believed
it was fully supported. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding the              discount, the OIG provided its methodology to management
throughout the course of this audit and had a Postal Service pricing economist validate
the calculations. In addition, management had several opportunities to state their
disagreement with our calculations when we first brought the issue to their attention in
October 2012. However, management did not inform us of their disagreement until after
we issued the draft report. In addition, management has not provided any
documentation to support errors in our calculations or their claim that the customer has
concurred with the discounts given. Since it appears that neither Postal Service
management nor the customer considers the discount amount to be in dispute, we will
not pursue it through the formal audit resolution process.

Regarding the insufficient volume and revenue data cited in the report to support a
rebate payment of            management provided a signed Authorization For Payment
memo dated February 22, 2011. However, they did not provide sufficient support for the
mail volume and revenue calculations used to validate the adjustment. Therefore, we
did not make any changes to the report regarding this issue.

We believe management's responses to these two issues are indicative of the data
discrepancies and insufficient data retention procedures outlined in this report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           8
Domestic Negotiated Service                                                    MS-AR-13-007
 Agreements



                                Appendix A: Additional Information

Background

The Postal Service develops NSAs with customers who will increase its mail volume
and revenue in return for mailing at reduced rates. Each NSA is unique and generally
covers a 3-year period and offers customers discounts, rebates or customized pricing.

The Postal Service files the potential NSA and its justification with the PRC. It is the
PRC's responsibility to determine whether the agreement improves the Postal Service's
net financial position or mail processing functions and does not cause unreasonable
harm to the marketplace before actually approving it. 22 The PRC will also assign an
NSA as a competitive or market dominant product. Competitive NSAs are customized
agreements pertaining to Postal Service products or services that are usually similar to
products or services offered by other companies in the marketplace. Revenue from
each competitive product must be greater than the costs attributed to that particular
product. Market dominant NSAs are customized agreements pertaining to products for
which the Postal Service essentially has a monopoly and for which it can set the price
substantially above costs, significantly raise prices, or decrease quality or output,
without the risk of losing a significant level of business to other firms offering similar
products. 23 A product manager is assigned to each agreement and routinely monitors
customers' mailing activities. The Postal Service must report these mailing activities
annually to the PRC to ensure that each agreement complies with statutory
requirements.

Objective, Scope, and Methodology

Our objective was to evaluate the process for managing domestic NSAs and determine
whether they resulted in mail volume and revenue increases. To accomplish our
objective, we reviewed nine judgmentally selected domestic NSAs, consisting of
12 products, to validate the accuracy of certifications, performance, discounts/rebates,
and mail volume growth filed with the PRC. These consisted of nine competitive
and three market dominant products. See Appendix C for volume and revenue
growth and Appendix D for the NSAs reviewed and revenue percentage. These nine
NSAs consisted of about
                 , which represented about
         for all NSAs during this period.




22
     39 U.S.C. §3622 (c)(10).
23
     39 U.S.C. §3642 (b)(1).

                                                9
Domestic Negotiated Service                                                  MS-AR-13-007
 Agreements



We also:

   Selected the five top revenue-generating competitive NSAs for FY 2011 — the first
    competitive NSA approved, one expired NSA, one active NSA, and one
    market dominant NSA that was pending approval in our sample.

   Analyzed discounts and rebates awarded to determine their reasonableness.

   Examined internal documents and system data used to monitor mailers’
    performance.

   Obtained and reviewed the PRC's Annual Compliance Determination Report for
    FYs 2009–2011 to gain the PRC’s perspective on NSA performance results.

   Determined the process for cancelling or terminating NSAs.

   Conducted interviews with vice presidents, managers, and staff members
    responsible for NSA solicitation, administration, and monitoring.

   Assessed the methodology used to evaluate unreasonable harm to the marketplace
    and conducted discussions with PRC, Postal Service, and OIG management and
    general counsel to determine how they define the term.

We conducted this performance audit from March 2012 through April 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on March 26, 2013, and included their comments
where appropriate.

We identified applications, databases, and systems Postal Service management used
to extract or generate revenue and volume data related to NSAs. We validated the data
contained in these systems and used them to develop the issues identified in this report.
We determined that the data were sufficiently reliable for the purposes of this review.




                                           10
Domestic Negotiated Service                                                               MS-AR-13-007
 Agreements



Prior Audit Coverage

                                                                  Final
                                                                 Report
            Report Title                 Report Number            Date           Monetary Impact
Postal Service’s Innovation               MS-AR-11-004           6/8/2011              None
Process for Competitive and
Market Dominant Products
Report Results: The Postal Service has regulatory and market constraints to innovation
that private companies do not have and must prove to the PRC that new products and
services will not violate statutory restrictions, will cover their attributable costs, and will not
create an unfair competitive advantage. The report recommended management increase
their efforts to support a culture of innovation that would support advancements within the
current statutory authority. This includes a comprehensive innovation strategy and a more
disciplined process for the development and implementation of market-based initiatives.
Management agreed with the conclusion and the recommendation to continue working
toward legislative changes.

Fiscal Year 2009 Standard Mail          FF-AR-10-196      7/16/2010            None
Volume Incentive Program
Report Results: The Postal Service reported both volume and revenue increases resulting
from the FY 2009 Summer Sale. However, the processes used to calculate the reported
increases might result in misleading reported revenue and volume impacts. Management
generally agreed with the findings and recommendations but did not feel the report
reflected the intangible benefits of the Summer Sale. The Postal Service continues to make
improvements to its incentive processes and implement best practices learned from the
2009 Standard Mail Summer Sale.

Strategies and Options to                GAO 10-455          4/12/2010            None
Facilitate Progress toward
Financial Viability
Report Results: Under the Postal Accountability and Enhancement Act of 2006, the U.S.
Government Accountability Office evaluated strategies and options for reform of the Postal
Service. The Postal Service faces financial losses that it projects could total more than
$238 billion through FY 2020, unless it can substantially reduce its costs, including the size
of its operations, networks, and workforce to reflect declining mail volume and to generate
new revenue. Congress should consider providing financial relief, such as revising the
Postal Service's retiree health benefit funding and requiring any binding arbitration to take
the Postal Service's financial condition into account. At the same time, congress should
consider setting up a panel of experts to develop proposals for broader legislative and
operational reform. The Postal Service agreed with the report’s key findings but raised
concerns about a panel and its timing.




                                                  11
Domestic Negotiated Service                                                                        MS-AR-13-007
 Agreements



                                   Appendix B: Monetary Impacts

          Recommendation                      Impact Category                             Amount
                1                     Refundable Revenue 24                               $755,112

                    1                 Revenue Loss 25                                       409,189
                    2                 Unsupported, Questioned Costs 26                       82,557
                  Total                                                                  $1,246,858




24
   Amounts the Postal Service may owe to customers who have overpaid for a service or product. Actually it is a
negative cash flow for the Postal Service but counts as a positive for internal OIG purposes.
25
   Amount the Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
26
   A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures, but does not necessarily connote any real damage to the Postal Service.


                                                       12
            Domestic Negotiated Service                                                                            MS-AR-13-007
             Agreements



                 Appendix C: Volume and Revenue Growth for Negotiated Service Agreements
                                               Reviewed


                                         FY 2009                            FY 2010                                   FY 2011


                                                                                          Percentage                              Percentage
                                                                                          Revenue                                 Revenue
                                                                                           Growth                                  Growth
                                                                                          (FY 2009                                (FY 2010
   NSA 27         Product       Volume         Revenue        Volume        Revenue        to 2010)     Volume         Revenue     to 2011)


       Competitive:
   1
   2
   3


   4




   5


   6
    Market Dominant:

   7




   8
   9
 Total
Source: Postal Service NSA Cost and Revenue Summary for FYs 2009-2011 for competitive NSAs and the PRC website for
market dominant NSAs.
Note: N/A means not applicable.




            27
                 Nine NSAs that consisted of 12 products -- nine competitive and three market-dominant products.




                                                                       13
Domestic Negotiated Service                                                         MS-AR-13-007
 Agreements



 Appendix D: Negotiated Service Agreements Reviewed With Sample Percentage

                                                               Total Revenue
                                                              Reported to PRC     Revenue
                                   Total Volume Reported to    for FYs 2009-    Percentage of
   NSA           Product            PRC for FYs 2009-2011           2011           Sample
           Competitive:
    1
    2

    3



    4




    5



    6


         Market Dominant:


    7




    8
    9
 Sample
  Total

Source: OIG analysis April 2013.

We reviewed nine NSAs that consisted of 12 products -- nine competitive and three
market dominant products. Eight of the nine judgmentally selected NSAs we reviewed
resulted in mail volume and revenue increases.




                                                 14
Domestic Negotiated Service        MS-AR-13-007
 Agreements




                              15
Domestic Negotiated Service                                   MS-AR-13-007
 Agreements


                          Appendix E: Management's Comments




                                         16
Domestic Negotiated Service        MS-AR-13-007
 Agreements




                              17
Domestic Negotiated Service        MS-AR-13-007
 Agreements




                              18
